No. 20-74

In the Supreme Court of the United States
United States of America,

Petitioner,
v.
Image Processing Technologies LLC, et al.,

Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I declare that the Memorandum
in Response for Respondent Rovi Guides, Inc. contains 2,616 words, excluding parts
of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on the 26th day of August 2020.
/s/ Michael E. Joffre
MICHAEL E. JOFFRE
STERNE KESSLER GOLDSTEIN & FOX, PLLC
1100 NEW YORK AVENUE, NW
WASHINGTON, DC 20005
202.371.2600

Counsel for Respondent Rovi Guides, Inc.

